Department of Homeland Security
   Ofﬁce of Inspector General

                  FEMA’s Management of 

               Disaster Assistance Employee 

             Deployment and Payroll Processes 





OIG-10-115                                  September 2010
                                                             Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                                     SEP 1 a 2010
                                          Preface

The Department of Romeland Security (DRS) Office ofInspector General (OIG) was
established by the Homeland Security Act 0/2002 (Public Law 107-296) by amendment
to the Inspector General Act 0/1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the deployment and payroll processes of the Federal Emergency
Management Agency (FEMA) Disaster Assistance Employee Program. It is based on
interviews with FEMA officials, direct observations, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                       QjJ~           Matt Jadacki     -r-
                                      Assistant Inspector General
                                      Office of Emergency Management Oversight
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Review ................................................................................................................4 


     Automated Deployment Database .................................................................................4 

      Recommendation ........................................................................................................5 

      Management Comments and OIG Analysis ...............................................................5 


     Disaster Assistance Employee Payroll Processes ..........................................................6 

      Time and Attendance Process.....................................................................................6 

        Recommendation .....................................................................................................8 

        Management Comments and OIG Analysis ............................................................8 

      WebTA Disaster Cost Code Management..................................................................9 

        Recommendation ...................................................................................................10 

        Management Comments and OIG Analysis ..........................................................10 

       DAE Program Benefits Policies and Guidance .......................................................11 

        Recommendation ...................................................................................................12 

        Management Comments and OIG Analysis ..........................................................12 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................13 

     Appendix B:           Management Comments to the Draft Report .......................................14 

     Appendix C:           FEMA Director’s Policy Number 1-99................................................19 

     Appendix D:           Major Contributors to This Report ......................................................22 

     Appendix E:           Report Distribution ..............................................................................23 


Abbreviations
     ADD                   Automated Deployment Database 

     DAE                   Disaster Assistance Employee 

     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     FFC                   FEMA Finance Center 

     GAO                   Government Accountability Office 

     HQ                    Headquarters            

     IFMIS                 Integrated Financial Management Information System

     JFO                   Joint Field Office          

     OIG                   Office of Inspector General 

     PKEMRA                Post-Katrina Emergency Management Reform Act of 2006

OIG 

Department of Homeland Security
Office of Inspector General


Executive Summary
                     The Federal Emergency Management Agency’s disaster assistance
                     employee deployment and payroll processes need improvement.
                     Disaster assistance employees are exempted-service intermittent
                     employees hired to assist in disaster response and recovery and are
                     a critical element in the agency’s disaster operations. However,
                     managers do not have adequate information on the deployments of
                     such employees, duplicative time-reporting systems are in place,
                     erroneous disaster cost code time entries can be made, and
                     program benefits policies contain conflicting guidance.

                     System updates are needed for the agency’s automated deployment
                     system to allow managers to supervise disaster assistance
                     employees, and monitor deployment readiness, length of
                     deployment, and employee location.

                     The time and attendance process needs improvement for efficiency
                     and prevention of errors. The duplicative paper and electronic
                     time-reporting systems need to be reviewed to determine the
                     necessary controls to provide reasonable assurance of accurate
                     time submissions.

                     System control vulnerabilities need to be eliminated to ensure
                     accountability for disaster costs. The payroll management system
                     does not prevent time entries by disaster assistance employees to
                     incorrect disaster cost codes for specific work assignments.

                     Disaster assistance employee program guidance needs to be
                     updated to include new program benefits policies to avoid
                     conflicting guidance to managers.

                     We are making four recommendations to strengthen the disaster
                     assistance employee deployment and payroll processes.




      FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                            Page 1 

Background
                           The Federal Emergency Management Agency (FEMA) is
                           authorized under the Robert T. Stafford Disaster Relief and
                           Emergency Assistance Act, as amended (Stafford Act), to
                           temporarily expand its staff size to respond to major disasters and
                           emergencies. Disaster assistance employees (DAEs) fulfill this
                           role by performing key program, technical, and administrative
                           functions during disasters. DAEs are excepted-service,
                           intermittent employees, either cadre reservists or local hires.
                           Cadre reservists have an initial appointment of 24 months, which is
                           renewable. Local hires have an initial appointment of 120 days,
                           which is also renewable.

                           The DAE Program has undergone several changes. FEMA
                           Instruction 8600.1, Disaster Assistance Employee Program, was
                           issued in June 1991 as the guiding administrative policy for the
                           program. In 1999, Director’s Policy No. 1-99 (see appendix C)
                           was issued to improve DAE workforce readiness to respond
                           wherever needed, quickly and effectively. Director’s Policy No. 1-
                           99 instituted the use of the Automated Deployment Database
                           (ADD) as a management tool to monitor overall cadre readiness
                           and capabilities. ADD tracks all FEMA deployable employees,
                           including full-time employees, the cadres of on-call reserve
                           employees, and local hire employees. Tracking also includes cadre
                           readiness, initial disaster site location (duty station), and training.

                           In 2007, FEMA commissioned a disaster reserve workforce study
                           by a national strategic consulting firm,1 which determined that
                           approximately 7,900 reservists were needed to support normal and
                           high-demand periods based on projected deployment and risk
                           tolerance data. The study noted that the optimal size of the DAE
                           workforce depends, to an extent, on the degree of uncertainty that
                           is acceptable concerning whether the workforce is properly sized
                           to accomplish its mission.

                           DAE management challenges are not new. The March 1999
                           Director’s Policy No. 1-99 established the basis for a systematic,
                           formalized approach to ensure readiness of the disaster cadre
                           workforce to respond to disasters quickly and effectively, wherever
                           needed. This directive described actions to achieve the desired
                           readiness and capability. In the subsequent years, a number of
                           these actions have been implemented to various degrees, such as
                           expanding all disaster operations by locally hiring DAEs for
1
    FEMA: New Disaster Reserve Workforce Model, Booz Allen Hamilton, 2007.

            FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                                  Page 2 

                         positions that do not require FEMA-specific expertise or when
                         limited advance training or minimal on-the-job orientation or
                         training is sufficient.

                         As of December 2009, the DAE Program consists of 22 cadres
                         with 7,995 registered disaster reservists located in all 10 regions
                         and at headquarters (see figure 1). Reservists are identified as
                         deployable once they submit a statement through ADD that they
                         are willing to deploy in the event of a major disaster.

                         Figure 1. DAE Cadre Listing2
                                                                    Managing                    FEMA FEMA
                                 Cadre Name
                                                                   Organization                  HQ Regions
                         Alternative Dispute Resolution       Office of Chief Counsel            √
                         Field Attorney                       Office of Chief Counsel            √
                         Contracting/Acquisition        Office of Chief Procurement Officer      √
                         Equal Rights                          Office of Equal Rights            √
                                                            Office of Safety, Health, and
                         Safety
                                                                    Environment
                                                                                                 √
                         Security                       Office of the Chief Security Officer     √
                                                          Office of the Chief Component
                         Disaster Generalist Group
                                                               Human Capital Officer
                                                                                                 √
                         External Affairs (Community
                         Relations, Congressional            Office of External Affairs          √     √
                         Affairs, and Public Affairs)
                         Comptroller                           Office of Management              √
                         Disaster Field Training
                         Operations
                                                         National Preparedness Directorate       √     √
                         Environmental/Historical        Federal Insurance and Mitigation
                         Preservation                              Administration
                                                                                                 √     √
                                                          Office of Federal Coordinating
                         Federal Coordinating Officer
                                                                 Officer Operations
                                                                                                 √     √
                         Financial Management           Office of the Chief Financial Officer    √     √
                                                          Office of the Chief Component
                         Human Resources
                                                               Human Capital Officer
                                                                                                 √     √
                         Individual Assistance                 Recovery Directorate              √     √
                                                            Office of Chief Information
                         Information Technology
                                                                     Technology
                                                                                                 √     √
                         Logistics                       Logistics Management Directorate        √     √
                                                         Federal Insurance and Mitigation
                         Mitigation
                                                                   Administration
                                                                                                 √     √
                         Operations                            Response Directorate              √     √
                         Planning                              Response Directorate              √     √
                         Public Assistance                     Recovery Directorate              √     √
                         Long Term Community
                         Recovery (Added Cadre)
                                                               Recovery Directorate              √




2
 In December 2009, FEMA realigned its DAE Cadre listing reducing the number of cadres from 23 to 22.
These changes have been made to this chart.

          FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                                  Page 3 

Results of Review
     To provide managers accurate and timely information on the deployments and
     payroll costs for disaster assistance employees, improvements are needed to the
     ADD system, the time and attendance process, the disaster cost code management
     process, and the DAE program guidance and benefit policies. These areas for
     improvement are discussed in the following sections.

     Automated Deployment Database
            DAE deployment activities are managed through FEMA’s ADD.
            However, this database does not capture all current information, such as
            current location if different from initial deployment and current readiness
            for deployment, needed by regional and Joint Field Office (JFO) staff
            members. Regional and JFO staff are consequently forced to use
            compensatory information collection procedures to manage and deploy
            DAEs.

            FEMA’s Director’s Policy No. 1-99 directed the use of the ADD to
            monitor overall cadre readiness and the capabilities of individual DAEs.
            ADD’s usefulness in tracking these items is limited because regional and
            JFO staff members frequently do not have full ADD access rights to
            update the system because they have not received the mandatory training.
            In response to this limitation, regional and JFO disaster cadre managers
            and staff have developed other information collection and tracking
            procedures.

            DAE cadre managers are responsible for ensuring that critical program
            areas have experienced and deployable DAEs available when a disaster is
            declared. Several cadre managers said that they had limited access to
            ADD and used telephone and email communications to make management
            decisions concerning DAE availability, certified job title, and experience.
            Procedures used include calling DAEs for deployment availability before
            or after an ADD-assigned deployment and collecting copies of training
            certificates.

            The JFOs’ Human Resources Sections require DAEs to provide contact
            information logs upon arrival; however, these contact information logs
            often do not document a DAE’s current location or daily assignment. To
            compensate, JFO section chiefs, in conjunction with the JFO Human
            Resources Section, use a “muster list” to track daily DAE location and
            activities. The muster list procedure requires that DAEs, on a daily basis,
            report their status, job assignment, and location to their JFO section chiefs.



      FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                            Page 4 

               Conclusion

               Incomplete DAE deployment data and limited ADD access for
               FEMA managers hinders their ability to accurately and efficiently
               manage and track DAEs prior to and during a disaster.

      Recommendation
               We recommend that the Associate Administrator, Mission Support:

               Recommendation #1: Implement ADD enhancements in the
               current system or incorporate these specifications in the
               replacement system to enable cadre managers and program staff to
               monitor DAE’s current readiness, current location, and capabilities
               and provide additional training opportunities to all appropriate
               FEMA managers to allow ADD access.

      Management Comments and OIG Analysis
               FEMA concurred in part with the original recommendation and
               realizes today’s ADD users require more and different system
               capability than is afforded by the present system. FEMA said
               plans for replacement of the 1996 ADD legacy system were
               underway. Even with the acknowledged limitations of the legacy
               ADD, they said that over 560 users have access to specific
               functions within ADD appropriate to their respective user group.
               In addition, the ADD Reports Utility allows managers to run
               reports on key workforce data elements, including DAE
               availability, duty location and duty status, and capabilities. FEMA
               also recognizes the need to offer training for new users and
               refresher training for more experienced users.

               We generally agree with the FEMA response to the
               recommendation. We modified the original recommendation to
               include either enhancements to the current system or to incorporate
               these specifications in the replacement system. Depending on the
               timeline for the replacement system, it could preclude additional
               ADD enhancements to the current system. Therefore, we will
               review the detailed corrective action plan in FEMA’s 90 day letter
               for either legacy system enhancements or new system
               specifications and implementation timeline to determine the status
               of this recommendation.




FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                      Page 5 

Disaster Assistance Employee Payroll Processes
       Key elements of the DAE payroll management process, including time
       and attendance reporting, disaster cost code management, and guidance
       and leave policies are not sufficiently integrated to enable effective
       oversight and program coordination.

                Time and Attendance Process

                A deployed DAE currently enters time worked in two separate
                systems, a paper-based timesheet and an electronic timekeeping
                system, WebTA.

                The paper-based process, illustrated in figure 2, requires that a
                completed copy of FEMA Form 30-50A, signed by both the DAE
                and the disaster field supervisor, be submitted to the JFO Human
                Resources Section for processing each pay period or at the end of a
                DAE deployment. The Human Resource staff members process
                the Form 30-50A and send a facsimile copy to the DAE’s assigned
                timekeeper for validation. Program officials said that timekeepers
                archive the 30-50A forms to maintain documentation that time was
                approved by the JFO supervisor.

                Figure 2. FEMA Paper-Based Process



                     FEMA                   Disaster field      Joint Field Office     Region timekeeper signs
                      Form                 supervisor signs     Human Resources        and reviews form against
                     30-50A                     form           Section faxes form to           WebTA
                                                                      Region



                  Disaster assistance
                  employee signs and
                  submits form

                                                                                        Form archived in
                                                                                        FEMA Regional
                                                                                            Office




                  Source: FEMA Instruction 8600.1




                DAEs are also required to submit a validated electronic time and
                attendance worksheet in WebTA. Once the DAE submits the
                electronic worksheet, a notice is transmitted to the DAE’s assigned
                timekeeper for validation. Once this is done, the DAE’s Regional
                supervisor receives and certifies the timesheet for processing by

 FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                                    Page 6 

               the Office of Mission Support, Management Division. Figure 3
               illustrates the WebTA process.

               Figure 3. The WebTA (Electronic) process
                  Disaster assistance employee               Regional timekeeper receives            Regional timekeeper
                  enters time and attendance in                  WebTA notification                   validates WebTA
                    WebTA and certifies file                                                         electronic timesheet



                                                                                                     Regional Supervisor
                                                                                                      certifier receives
                                                                                                     WebTA notification



                                                                                                     Regional Supervisor
                                                                                                      certifier certifies
                                                                                                      WebTA electronic
                                                                                                          timesheet

                Sources: FEMA, Office of the Chief Financial Officer,
                         Standard Operating Procedure, Payroll Process,
                         April 2007. Revised January 2009
                                                                                            Final electronic WebTA
                         FEMA, Human Resource Division,                                           submission to
                         Time and Attendance Program,                                       Office of Mission Support
                         Instruction Number 3250.1-April 2001
                                                                                             Management Division



               The benefit of the two independent time and attendance tracking
               systems is unclear. There is no formal guidance regarding how
               each tracking system should be used to validate the reported data.
               Several regional timekeepers said that they use Form 30-50A to
               confirm time entered into WebTA.

               Conclusion

               DAEs are subject to redundant time-reporting requirements. The
               WebTA system offers the most efficient and effective time
               submission approach; however, the WebTA system does not
               provide the needed verification for FEMA managers to have
               reasonable assurance that the time submitted by the DAE
               accurately reflects the time worked. If appropriate WebTA
               guidance existed requiring the confirmation of electronic time
               entries, there could be reasonable management assurance that time
               submitted by the DAE is accurate.




FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                                  Page 7 

      Recommendation
               We recommend that the Associate Administrator, Mission Support:

               Recommendation #2: Review time and attendance processes to
               eliminate unnecessary duplicative reporting and implement
               management controls to ensure that the time and attendance entries
               reflect work performed.

      Management Comments and OIG Analysis
               FEMA agrees that it must identify an electronic way to allow
               multiple certifications of hours actually worked during a pay
               period. FEMA will forward this issue to the Department’s Time
               and Attendance User Group for discussion/suggestions and
               research current industry practices to identify possible options.

               We agree with FEMA’s approach to research available options and
               to raise the issue with the Department’s Time and Attendance User
               group. We will determine the status of this recommendation once
               we receive the detailed corrective action plan in FEMA’s 90 day
               letter.




FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                      Page 8 

               WebTA Disaster Cost Code Management

               Disaster cost code management processes are not adequate to
               prevent older disaster or surge cost codes from being applied to
               new disaster deployments. This could lead to inaccurate disaster
               cost information reports distributed to FEMA managers, Congress,
               and the public. In addition, inaccurate payroll expenses associated
               with DAEs could lead to flawed management decisions concerning
               DAE resources used for past disasters, DAE resources needed for
               current disasters, and DAE resources estimates for future disasters.

               As shown in figure 4, the Mission Support Directorate is
               responsible for managing disaster costing for declared disasters in
               the Disaster Relief Fund. Once funds are allocated, the FEMA
               Finance Center (FFC) enters disaster funding codes into the
               Integrated Financial Management Information System (IFMIS) and
               generates WebTA disaster cost codes. The Office of Management,
               Human Capital Division enters the codes into WebTA.

               Figure 4. Office of Mission Support WebTA Cost Code Actions



                Office of Chief Financial Officer             Assigns funding in Disaster
                Disaster Budget Division                      Relief Fund




                Office of Chief Financial Officer               Assigns disaster funding in
                FEMA Finance Center
                                                                 IFMIS
                                                                FFC reviews IFMIS entry
                                                                FFC generates WebTA code
                                                                FFC sends code to Human
                                                                 Capital Division




                                                              Code entered into WebTA
                Office of Management
                Human Capital Division




               The disaster budget is administered at each JFO by a disaster
               comptroller, part of the Chief Financial Officer DAE cadre. At the
               regional offices, assigned timekeepers and Management Division
               employees monitor all WebTA funding code entries. Program
               officials said that at the beginning of declared disasters, some
               timekeepers are not given the declared disaster cost codes in a
               timely manner. In this situation, the timekeeper will either use
               disaster surge funding codes or old disaster cost codes for DAE
               payroll expenses. That places the timekeepers and managers at

FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                               Page 9 

               risk of charging time to incorrect disaster cost codes for specific
               work assignments.

               Conclusion

               The disaster payroll cost code management process does not have
               adequate controls or program guidance to ensure that DAE payroll
               expenses are charged to the correct disaster cost codes.

      Recommendation
               We recommend that the Associate Administrator, Mission Support:

               Recommendation #3: Implement and document procedures to
               ensure timekeepers receive disaster cost codes in a timely manner
               and charge payroll expenses to the correct disaster cost code.

      Management Comments and OIG Analysis
               FEMA Office of the Chief Component Human Capital Officer is
               currently scheduling training with FEMA’s Office of the Chief
               Financial Officer, in order to grant staff the access to directly
               administer WebTA accounting codes. This will result in more
               timely updates to the codes available in WebTA to employees.
               FEMA agrees that there is a need to review its current timekeeping
               procedures, to promulgate new Agency-wide timekeeping
               procedures, and to increase awareness among timekeeping user
               groups.

               We agree with FEMA’s responses and the actions they are taking.
               We will determine the status of this recommendation once we
               receive the detailed corrective action plan in FEMA’s 90 day letter.




FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                     Page 10 

               DAE Program Benefits Policies and Guidance

               In recent years, FEMA has issued new DAE Program benefits
               policies and guidance; however, the new policies have not been
               permanently incorporated into the existing overall DAE
               administrative program guidance.

               FEMA Instruction 8600.1 outlines the Stafford Act’s special hiring
               authority, including DAE salary and benefits. The instruction
               states that DAEs must work on a holiday to be entitled to pay for
               that day and are not eligible for annual or sick leave. However,
               since the issuance of FEMA Instruction 8600.1, conflicting interim
               salary and benefit policies have been issued.

               The Disaster Reservist Holiday and Administrative Leave Policy
               issued in October 2008 provides deployed DAEs with pay for
               holiday and administrative leave. This interim policy was
               developed to eliminate a disparity in the administration of FEMA’s
               competitive and excepted hiring authorities. The disparity was
               resolved by allowing officials to offer DAEs (1) a maximum of 8
               hours of holiday pay when a disaster worksite is closed to observe
               a federal holiday or when management provides employees the day
               off in observance of the holiday, within a 40-hour workweek and
               (2) a maximum of 8 hours of administrative leave such as during
               emergency closures of the worksite or during inclement weather,
               within a 40-hour workweek. Although this interim policy conflicts
               with FEMA Instruction 8600.1, it remains in effect until
               superseded by permanent instruction.

               The Interim Policy for DAE Sick Leave, issued in July 2009,
               provided DAEs with sick leave benefits for the first time. FEMA
               anticipated that this new benefit would increase DAE productivity,
               reduce the spread of workplace illnesses, and reduce DAE
               turnover. Like the Disaster Reservist Holiday and Administrative
               Leave Policy, this interim policy conflicts with FEMA Instruction
               8600.1, but remains in effect until superseded by permanent
               instruction. The inconsistencies between the interim leave policies
               and the overall permanent DAE program guidance leads to
               confusion for managers. Program personnel said these policy
               inconsistencies hinder them in making appropriate DAE salary
               payments.

               Conclusion

               Recently issued, DAE benefits policies have not been integrated
               with the permanent DAE program guidance in FEMA Instruction

FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                     Page 11 

               8600.1 and Director’s Policy No. 1-99. Any new program benefit
               polices should be incorporated into that existing overall guidance
               to ensure consistent application.

      Recommendation
               We recommend that the Associate Administrator, Mission Support:

               Recommendation #4: Review and update key DAE program
               benefits policies, procedures, and guidance to eliminate conflicts
               and inconsistencies between interim policies and permanent
               overall guidance.

      Management Comments and OIG Analysis
               FEMA fully concurs with the recommendation and currently has
               efforts underway to finalize policies and increase awareness of the
               new guidance on DAE leave policies. In addition, FEMA
               Instruction 8600.1 is currently under revision and FEMA expects
               the revised publication to eliminate any inconsistencies between
               new policies and permanent overall guidance.

               We agree with FEMA’s approach and the actions they are
               currently taking. We will determine the status of this
               recommendation once we receive the detailed corrective action
               plan in FEMA’s 90 day letter.




FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                     Page 12 

Appendix A
Purpose, Scope, and Methodology

                      This audit was originally intended to determine the effectiveness of
                      FEMA’s internal controls to provide reasonable assurance that
                      salary, travel, and other expenses associated with disaster
                      assistance employees are charged to the appropriate presidentially
                      declared disaster or administrative account. The original scope of
                      this audit covered the DAE Program’s polices and guidance and
                      the payroll and travel processes for DAE expenses. Owing to
                      FEMA’s inability to provide timely, complete, and accurate
                      information to our audit team, we modified our scope.

                      The revised scope reviewed DAE deployment and payroll
                      processes. We analyzed the DAE Program policies, procedures,
                      and guidance; interviewed FEMA headquarters, regional, and Joint
                      Field Office officials; and sampled FY 2005 through FY 2009
                      DAE time and attendance, and ADD records from four FEMA
                      regions to determine the effectiveness of these processes. The
                      fieldwork was conducted from February through October 2009.
                      Since the end of fieldwork, FEMA officials have provided
                      additional information to clarify key process areas.

                      We conducted this performance audit under the authority of the
                      Inspector General Act of 1978, as amended, and according to
                      generally accepted government auditing standards. These
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis for
                      our findings and conclusions based on our audit objectives. We
                      believe that the evidence obtained supports the findings and
                      conclusions based on our audit objectives.




       FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                            Page 13

Appendix B
Management Comments to the Draft Report



                                                                               u.s. Inp•• lm.n' or IlDm.lud S..ur;')'
                                                                               .rooCS~I.SW
                                                                               WashIngton. DC 20472




                                               JUL I 9 1010

         MEMORANDUM FOR:             Mati Jadacki
                                     Assistanl Inspector Gcneml
                                     Office of Emergcncy Management       ver ight
                                     Department of Hom nd Sec

         FROM:                       David Garratt
                                     Associate Ad
                                     Mission Sup
                                     Fedeml Erne geney Management Agency

         SUBJECT:                    Response 10 Draji Report: FEMA 's Management oj Disaster
                                     A.~sisfance
                                               Employee Deployment and Payroll Processe.~

         Attached for your review are the Federal Emergency Management Ageney's (FEMA) comments on
         Draji Report: FEMA '.I' Managemellf ojDisaster Assistance Employee Deployment (/ful Payroll
         Processes. Comments provided arc both general in terms of the information contained within the
         report and specific to Ihe report recommendations.

        Overall, I find no reason for concern regarding thc public release of information contained within
        this report. If you have questions regarding the comments provided. please have a member of your
        staffeontaci Mr. Phil Nowak. Deputy Chief Component Human Capital Officer. He can be reached
        on 202-646-1955 or via email at Philip. Nowak (/ dhs.gov.

        Attachment

        cc: OPPA




       FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                                   Page 14

Appendix B
Management Comments to the Draft Report




       FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                            Page 15 

Appendix B
Management Comments to the Draft Report




       FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                            Page 16 

Appendix B
Management Comments to the Draft Report




       FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                            Page 17 

Appendix B
Management Comments to the Draft Report




       FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                            Page 18 

Appendix C
FEMA Director’s Policy 1-99, March 1999




       FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                            Page 19

Appendix C
FEMA Director’s Policy 01-99, March 1999




       FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                            Page 20 

Appendix C
FEMA Director’s Policy 01-99, March 1999




       FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                            Page 21 

Appendix D
Major Contributors to This Report

                      Kaye McTighe, Mitigation and Disaster Assistance Division
                      Nigel Gardner, Audit Manager
                      Donald Norman, Audit Manager
                      Eric Hostelley, Program Analyst
                      Nathaniel Nicholson, Auditor




       FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                            Page 22

Appendix E
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       General Counsel
                       Executive Secretary
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs
                       Under Secretary, Management

                       Federal Emergency Management Agency

                       Administrator
                       Chief of Staff
                       Associate Administrator, Mission Support
                       Chief Financial Officer
                       Chief Component Human Capital Officer
                       Deputy Chief Component Human Capital Officer
                       FEMA Audit Liaison (Project Code 09-016-EMO)

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




        FEMA’s Management of Disaster Assistance Employee Deployment and Payroll Processes


                                             Page 23

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
